Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     IOWA HAS SHIFTED
  MEDICARE COST-SHARING
 FOR DUAL ELIGIBLES TO THE
   FEDERAL GOVERNMENT




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                          April 2014
                        OEI-07-13-00480
EXECUTIVE SUMMARY: IOWA HAS SHIFTED MEDICARE COST-SHARING FOR DUAL
ELIGIBLES TO THE FEDERAL GOVERNMENT
OEI-07-13-00480

WHY WE DID THIS STUDY

Dually eligible beneficiaries (dual eligibles) are individuals eligible for both Medicare and Medicaid. For a
certain type of dual eligibles—full-benefit dual eligibles—State Medicaid programs pay Medicare
cost-sharing. Some of these payments are eligible for Federal Financial Participation (FFP). During an audit
of the State of Iowa’s claims for FFP for its Medicare cost-sharing payments, the Office of Inspector General
(OIG) found that Iowa had made State Supplementary Payments of $1 per beneficiary per month to a group
of about 41,000 dual eligibles. By making these payments, the State spent approximately $500,000 and
received $39 million in FFP. We sought to determine the extent to which other States might similarly be
shifting costs to the Federal government.

HOW WE DID THIS STUDY

In addition to reviewing the information collected during the audit of Iowa’s claims, we conducted additional
research regarding the law and regulations governing the availability of FFP for Medicare cost-sharing, and
we reviewed the data available on dual eligibles, on their Medicare cost-sharing paid by State Medicaid
programs, and on the eligibility of those payments for FFP. We also interviewed staff from the Centers for
Medicare & Medicaid Services’ (CMS) Office of Financial Management to better understand how State
Medicaid programs pay Medicare cost-sharing for dual eligibles and the data available on dual eligibles for
whom States pay Medicare cost-sharing.

WHAT WE FOUND

Although they are not unlawful, Iowa’s $1 State Supplementary Payments were designed to maximize FFP.
FFP has always been available for State Medicaid programs’ payments of Medicare Part B premiums made
on behalf of beneficiaries who receive Federal and State income assistance. Iowa’s $1 payments are not
intended as income assistance; instead, they were created for the express purpose of obtaining FFP for
Medicare Part B premiums. The detailed Medicaid eligibility data necessary to evaluate whether other States
have shifted costs in a manner similar to Iowa are not available for all States. States are not required to
identify in the data they submit to CMS whether and why every dual eligible’s Part B premiums are eligible
for FFP. Therefore, an evaluation determining the extent to which other States might similarly be shifting
costs to the Federal Government is not feasible.

WHAT WE RECOMMEND

We recommend that CMS (1) seek a legislative change to prevent States from using State Supplementary
Payments to shift Medicare Part B premium costs for full-benefit dual eligibles to the Federal Government
and (2) require States to submit more detailed eligibility information. CMS neither concurred nor
nonconcurred with our recommendations. In its comments, CMS suggested that since the basis for FFP for
Part B premiums is the Social Security Administration’s (SSA) criteria for State Supplementary Payments,
this report and its recommendations should be directed to SSA. CMS also suggested that SSA should—as an
alternative to a legislative change—revise its regulatory criteria defining State Supplementary Payments to
make them consistent with 42 CFR 435.232(b), which mandates guidelines for optional State Supplementary
Payments. OIG has no authority to make recommendations to SSA; we continue to believe that CMS should
seek a legislative change to address this issue.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings........................................................................................................8 

           Although not unlawful, Iowa’s $1 State Supplementary
           Payments were designed to maximize FFP .....................................8 

           Detailed Medicaid eligibility data necessary to evaluate 

           whether other States have shifted costs similarly to Iowa are 

           not available for all States................................................................9 

Conclusion and Recommendations ............................................................10 

           Agency Comments and Office of Inspector General 

           Response ........................................................................................11

Appendix....................................................................................................12 

           A: State Medicaid Programs Cost-Sharing by Type of Dual 

           Eligible...........................................................................................12 

           B: Agency Comments ...................................................................13 

Acknowledgments......................................................................................14 

                   OBJECTIVES
                   1.	 To describe a cost-shifting strategy implemented by the State of Iowa
                       in Federal fiscal year (FY) 2011.
                   2.	 To determine the extent to which other States might similarly be
                       shifting costs to the Federal Government.

                   BACKGROUND
                   Dually eligible beneficiaries (dual eligibles) are those individuals who are
                   entitled to Medicare Part A and/or Part B and are eligible for some form of
                   Medicaid benefits. State Medicaid programs pay Medicare premiums,
                   deductibles, and coinsurance/copayments for certain types of dual
                   eligibles.1 Some of these payments by the State on behalf of dual eligibles
                   are mandated by Federal law, whereas others are optional. State Medicaid
                   programs may collect Federal Financial Participation (FFP) for most, but
                   not all, of these payments.2
                   Dual Eligible Beneficiaries
                   There are five basic categories of dual eligibles. (This report is concerned
                   primarily with the fifth category, full-benefit dual eligibles.) Beneficiaries
                   in each category are entitled to different Medicaid benefits or
                   combinations of benefits, from payment of Medicare premiums,
                   deductibles, and/or coinsurance/copayments, to full Medicaid coverage.
                   Qualified Medicare Beneficiaries (QMBs). QMBs are persons who are
                   entitled to Medicare Part A whose income does not exceed 100 percent of
                   the Federal poverty level (FPL) and whose resources do not exceed three
                   times the limit for Supplemental Security Income program (SSI)
                   eligibility. They may or may not be eligible for full Medicaid benefits.
                   State Medicaid programs must pay for QMBs’ Medicare Part A premiums,
                   if any, and Medicare Part B premiums; States may collect FFP for these
                   payments.
                   Specified Low-Income Medicare Beneficiaries (SLMBs). SLMBs are
                   persons who are entitled to Medicare Part A, have income greater than
                   100 percent of the FPL but less than 120 percent of the FPL, and have
                   resources that do not exceed three times the limit for SSI eligibility. They
                   may or may not be eligible for full Medicaid benefits. State Medicaid

                   1
                     The discussion that follows concerning Medicaid payment of Medicare premiums,
                   deductibles, and coinsurance is limited to Medicare fee-for-service (Part A and Part B),
                   although State Medicaid programs also pay Medicare Advantage (Part C) premiums and
                   copayments on behalf of certain types of dual eligibles.
                   2
                     FFP is the percentage of Medicaid expenditures that the Federal Government pays
                   States.

Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)     1
                   programs must pay for SLMBs’ Medicare Part B premiums and may
                   collect FFP for these payments.
                   Qualified Disabled and Working Individuals (QDWIs). QDWIs are
                   persons who lost their Medicare Part A benefits as a result of returning to
                   work. They are eligible to purchase Medicare Part A benefits, have
                   income that does not exceed 200 percent of FPL, have resources that do
                   not exceed twice the limit for SSI eligibility, and are not otherwise eligible
                   for Medicaid (i.e., they are not eligible for Medicaid payment for health
                   care services). State Medicaid programs must pay for QDWIs’ Medicare
                   Part A premiums and may collect FFP for these payments.
                   Qualifying Individuals (QIs). QIs are persons who are entitled to
                   Medicare Part A, have income of at least 120 percent of FPL but less than
                   135 percent of FPL, have resources that do not exceed three times the limit
                   for SSI eligibility, and are not otherwise eligible for Medicaid. State
                   Medicaid programs must pay for QIs’ Medicare Part B premiums and may
                   collect FFP for these payments.
                   Full-Benefit Dual Eligibles (FBDEs). FBDEs are entitled to Medicare
                   Part A and/or Part B and are eligible for full Medicaid benefits, either
                   categorically or through optional coverage groups.3 They are not eligible
                   for Medicaid as QMBs, SLMBs, QDWIs, or QIs. State Medicaid
                   programs have the option to pay—but are not required to pay—Medicare
                   Part B premiums on behalf of FBDEs. State Medicaid programs may
                   collect FFP for such payments made on behalf of FBDEs who are actual
                   or “deemed” recipients4 of cash assistance, including SSI, State
                   Supplementary Payments, and Temporary Assistance for Needy Families
                   (TANF).5 FFP is not available for Medicare Part B premiums paid on
                   behalf of FBDEs who are not recipients of cash assistance.
                   See Appendix A for a table summarizing the categories of dual eligibles
                   and the Medicare cost-sharing that State Medicaid programs pay for these
                   beneficiaries.



                   3
                     Examples of optional coverage groups include medically needy individuals or
                   individuals with special income levels who are institutionalized or participating in
                   home- and community-based waiver programs.
                   4
                     Beneficiaries are deemed to be recipients of cash assistance pursuant to various
                   provisions of the Social Security Act (the Act). For example, section 1619(b) of the Act
                   states that an individual receiving SSI on the basis of disability or blindness may be
                   deemed eligible for continued SSI recipient status and Medicaid when the individual’s
                   earnings (alone or in combination with other income) make him/her ineligible for cash
                   payments. Federal regulations at 42 CFR § 431.625(d)(2) summarize the various
                   deeming provisions of the Act.
                   5
                     The Act, §§ 1903(a)(1) and 1905(a).

Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)     2
                   Supplemental Security Income and State Supplementary
                   Payments
                   Established in 1972, SSI is a Federal income-supplement program funded
                   by general tax revenues.6 The SSI program was meant to replace three
                   State-operated, federally assisted welfare programs that then existed—
                   Old-Age Assistance, Aid to the Blind, and Aid to the Permanently and
                   Totally Disabled—with a new wholly Federal program of supplemental
                   income.7 SSI continues to provide cash to meet basic needs for eligible
                   aged, blind, and disabled individuals. The SSI program also allows States
                   to provide supplements to Federal SSI payments to help individuals meet
                   their needs.8 These supplements are called State Supplementary
                   Payments. They can be made to SSI recipients (or those who would, but
                   for their income, be eligible for SSI) as cash payments on a regular basis
                   (at least quarterly) in an amount based on the need or income of an
                   individual or couple.9
                   There are two types of State Supplementary Payments: mandatory and
                   optional. States are required to make certain mandatory payments to
                   maintain their eligibility to participate in Medicaid.10 States may also opt
                   to make payments to individuals whose needs are not met by their income
                   and who (1) are receiving SSI payments or (2) would, but for their
                   income, be eligible to receive SSI payments.11 Forty-four States currently
                   make optional State Supplementary Payments to qualifying individuals;
                   the amount each individual receives is determined by the State.12
                   States that participate in State Supplementary Payments may either
                   contract with the Social Security Administration (SSA) to administer the
                   payments, in which case SSA is paid by the State to operate the program,
                   or States may make State Supplementary Payments directly to qualifying


                   6
                     Social Security Amendments of 1972, P.L. No. 92-603, Title III (Oct. 30, 1972).
                   7
                     Senate Report 92-1230, p. 75; Social Security Administration, 2011 Annual Report of

                   the SSI Program (Annual Report), § III. 

                   8
                     Ibid., p. 277. 

                   9
                     The Act § 1616(a); 20 CFR 416.2001(a). 

                   10
                      Social Security Administration, State Assistance Programs for SSI Recipients, 

                   January 2011—Guide to Reading the State Summaries, January 2011. Accessed at

                   http://www.ssa.gov/policy/docs/progdesc/ssi_st_asst/2011/guide.html on August 17, 

                   2012. 

                   11
                      To qualify for SSI, a person must be age 65 or older, blind, or disabled; be a
                   U.S. citizen or national or one of certain categories of aliens; and have limited income
                   and resources. States can choose to make State Supplementary Payments to individuals
                   who would qualify for SSI except that their income is too high. Social Security
                   Administration, Understanding Supplemental Security Income SSI Eligibility
                   Requirements—2013 Edition. Accessed at http://www.ssa.gov/ssi/text-eligibility-
                   ussi.htm on September 17, 2013.
                   12
                      Ibid.

Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)         3
                   individuals. Because optional State Supplementary Payments are funded
                   by State revenues, States have a great deal of flexibility in defining who
                   receives these payments and the amounts paid.
                   “Buy-In” Agreements
                   Section 1843 of the Act allows a State Medicaid program to enter into an
                   arrangement, known as a “buy-in” agreement, with the Centers for
                   Medicare & Medicaid Services (CMS). A buy-in agreement is the
                   mechanism by which a participating State Medicaid program can enroll
                   dual eligibles in Medicare Part B and pay the monthly premiums on their
                   behalf.13 To be eligible for enrollment in a Part B buy-in agreement, an
                   individual must be eligible to receive Medicaid under the State’s plan, or
                   be a QMB or an SLMB.
                   Buy-in agreements are implemented through an automated exchange of
                   data among the States, CMS, and SSA, which share responsibility for
                   identifying eligible individuals and submitting data updates on those
                   individuals.14 The participants in the data exchange use codes that group
                   individuals into eligibility categories and identify which groups’ Part B
                   premiums are eligible for FFP. CMS maintains a master enrollment file of
                   Medicare eligibility information that includes updates from States and
                   SSA.15 Table 1 shows the codes that States use to identify groups of dual
                   eligibles in the monthly updates, and Table 2 shows the SSI status codes
                   that CMS uses for adding or updating dual eligibles.
                   Table 1: Buy-in Eligibility Codes
                    Code*         Eligibility Category
                    A             Aged recipient of Federal SSI payments
                    B             Blind recipient of Federal SSI payments
                    C             Entitled under Part A of Title IV
                    D             Disabled recipient of Federal SSI payments
                    L             Specified Low-Income Medicare Beneficiary (SLMB)
                    M             Entitled to medical assistance only, noncash recipient
                    P             Qualified Medicare Beneficiary (QMB)
                    Z             Deemed categorically needy
                   *In addition to these federally defined codes, States can also define their own eligibility codes to 

                   identify additional eligibility categories. 

                   Source: CMS, State Buy-In Manual, Pub. 100-24, ch. 5, § 540, 2003. 





                   13
                      States also can pay Part A premiums on behalf of QMBs as part of a buy-in agreement.

                   14
                      CMS, State Buy-In Manual, Pub. 24, ch. 4, § 400. CMS revised and transferred several

                   chapters of the State Buy-In Manual from the paper version (Pub. 24) to an Internet-only

                   version (Pub. 100-24). Other chapters remain in the paper version.

                   15
                      Ibid. 


Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)                       4
                   Table 2: SSI Status Codes
                    Code         Eligibility Category

                    C            Conditionally eligible for SSI

                                 Eligible for SSI and may or may not be receiving federally administered State
                    E
                                 supplementary payments

                    M            Special SSI payment for individuals engaged in substantial gainful activity

                                 Eligible for SSI and is receiving federally administered State Supplementary
                    S
                                 Payments only
                   Source: CMS, State Buy-In Manual, Pub. 100-24, ch. 5, § 530, 2003.


                   Audit of Iowa Cost-Sharing Payments and Claims for FFP
                   During an audit of Iowa’s claims for FPP for Medicare cost-sharing
                   payments made through the State’s buy-in agreement in FY 2011, the
                   Office of Inspector General (OIG) found that Iowa was making a State
                   Supplementary Payment of $1 per beneficiary per month to a group of
                   approximately 41,000 FBDEs.16, 17 OIG found that Iowa made such
                   payments in FY 2011, paid Part B premiums on behalf of individuals
                   receiving these payments, and received FFP for the premium payments.
                   The recipients of these $1 payments were not receiving any other cash
                   assistance.
                   Policy documents collected for the audit show that Iowa implemented the
                   $1 payments for the sole purpose of allowing the State to claim FFP on
                   payments of Medicare Part B premiums for these FBDEs. These policy
                   documents explicitly stated that the purpose of these payments is to
                   provide a cash benefit to certain Medicaid recipients who do not qualify
                   for other cash assistance benefits in order to allow the State to receive FFP
                   for the Medicare premiums that would otherwise be paid with State
                   funds.18

                   The audit found that in FY 2011, Iowa may have spent a maximum of
                   approximately $500,000 as a cumulative total of the $1 payments.19 In
                   FY 2011, Iowa received an estimated $39 million in FFP for Part B
                   premium payments for beneficiaries receiving the $1 payments. This


                   16
                      Within OIG, audits are conducted by the Office of Audit Services. 

                   17
                      In FY 2011, Iowa had a total of 77,874 dual eligibles. CMS, “Dual Eligible 

                   Enrollment as of July 1, 2011,” Medicaid Managed Care Enrollment Report: Summary 

                   Statistics as of July 1, 2011. 

                   18
                      See Iowa Administrative Bulletin (IAB), Vol. 27, No. 5, p. 318 (Sept. 1, 2004); IAB, 

                   Vol. 28, No. 10, p. 749 (Nov. 9, 2005).
                   19
                      This figure of $500,000 was calculated by multiplying the 41,481 FBDEs by their
                   estimated State Supplementary Payments of $12 per year, for a result of $497,772. The
                   actual amount that Iowa spent making the State Supplementary Payments may be less, if
                   some of the FBDEs did not receive a payment in every month of FY 2011.

Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)            5
                   represents 60 percent of the $64.7 million that Iowa received in FFP for
                   Medicaid payments of Part B premiums overall in FY 2011.20

                   Iowa’s payments complied with Federal requirements; in October 2004,
                   staff from SSA and CMS agreed that Iowa’s proposal to begin making the
                   $1 payments was acceptable.21 Because Iowa’s $1 payments and claims
                   for FFP based on those payments were legally appropriate, and because
                   the objective of the audit was to identify inappropriate payments, OIG did
                   not include these results in its audit report.22 Instead, OIG undertook an
                   evaluation to determine the extent to which other States might similarly be
                   shifting costs to the Federal Government.

                   METHODOLOGY
                   We reviewed the results of the OIG audit on Iowa’s claims for FFP for
                   Medicare cost-sharing payments in FY 2011. We sought to design an
                   evaluation to determine the extent to which States might be shifting
                   Medicaid costs to the Federal Government by making small State
                   Supplementary Payments. We researched the following areas:
                        	 the types of Medicare cost-sharing that Medicaid can pay for dual
                           eligibles;
                        	 the data States are required to submit on the dual eligibles for
                           whom they pay Medicare cost-sharing; and
                        	 the safeguards surrounding State-reported data on dual eligibles
                           and cost-sharing.
                   We also interviewed staff from the CMS Office of Financial Management
                   to better understand buy-in agreements and the data available on dual
                   eligibles for whom States pay Medicare cost-sharing.




                   20
                      We did not determine the extent to which, prior to FY 2011, Iowa had been making
                   $1 State Supplementary Payments and receiving FFP for Part B premiums paid on behalf
                   of those recipients. In its August 2004 letter to the regional commissioner for SSA, Iowa
                   stated its intention to begin making the $1 State Supplementary Payments retroactive to
                   October 1, 2003.
                   21
                      In October 2004, Iowa received approval from SSA and CMS to begin making the
                   $1 payments. A teleconference was held in December 2003, at which the Iowa
                   Department of Human Services, SSA central and regional offices, and CMS staff all
                   agreed that the payment amounts and eligibility criteria proposed were acceptable. Letter
                   from Ramona Schuenmeyer, Acting Regional Commissioner, SSA, to Ann Wiebers,
                   Division Administrator, Iowa Department of Human Services, dated October 5, 2004.
                   22
                      OIG, Iowa Did Not Properly Pay Some Medicare Part A and Part B Deductibles and
                   Coinsurance (A-07-12-03178), November 2012.

Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)     6
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)   7
                   FINDINGS
                   Although not unlawful, Iowa’s $1 State Supplementary
                   Payments were designed to maximize FFP
                   When the SSI program was established in 1972,23 it was envisioned as a
                   basic national “income maintenance program” for the aged, blind, and
                   disabled,24 designed to ensure that these individuals would no longer have
                   to subsist on incomes below the poverty level.25 The SSI program allows
                   States to provide supplements to Federal SSI payments—State
                   Supplementary Payments—to further help individuals meet their needs.26
                   SSA’s 2011 Annual Report on the SSI program states: “In designing the
                   SSI program, Congress recognized that States, in many instances, may
                   want to provide a higher level of income maintenance than that provided
                   by the Federal program.”27
                   Section 1905(a) of the Act allows States that provide such income
                   maintenance through State Supplementary Payments to FBDEs to claim
                   FFP for Medicaid payments of Medicare Part B premiums made on behalf
                   of those beneficiaries. However, if an FBDE does not receive cash
                   assistance from the State, the State cannot claim FFP for Medicaid
                   payments of Medicare Part B premiums made on that beneficiary’s behalf.
                   Iowa has implemented a State Supplementary Payment for the express
                   purpose of obtaining FFP for the State’s payment of Medicare Part B
                   premiums already being paid by its Medicaid program; in FY 2011, Iowa
                   obtained $39 million—an amount that otherwise would have been paid by
                   the State—in FFP for beneficiaries receiving the $1 payments. Given that
                   the payments amount to $12 per year per beneficiary, they have little effect
                   on the income level of the recipients. The SSI program was intended to
                   ensure that recipients would no longer have to subsist on incomes below
                   the poverty level; however, these payments exist for the sole purpose of
                   maximizing Iowa’s receipt of FFP.




                   23
                      Social Security Amendments of 1972, P.L. NO. 92-603, Title III (Oct. 30, 1972). 

                   24
                      Senate Report 92-1230, p. 384. 

                   25
                      House Committee on Ways and Means, 1996 Green Book, p. 258. 

                   26
                      Ibid., p. 277. 

                   27
                      Annual Report, § III. 


Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)     8
                   Detailed Medicaid eligibility data necessary to evaluate
                   whether other States have shifted costs similarly to
                   Iowa are not available for all States
                   In their data updates to CMS on individuals eligible for Medicaid
                   payments of Medicare cost-sharing, States are not required to submit
                   codes identifying why every dual eligible’s Part B premiums are eligible
                   for FFP. There is no code in use by all States that specifically identifies
                   beneficiaries receiving State Supplementary Payments, which is the
                   population that would potentially be affected by Iowa’s cost-shifting
                   strategy. In States in which SSA administers the State Supplementary
                   Payment program, there are CMS data that identify beneficiaries receiving
                   State Supplementary Payments. However, these data represent only a
                   fraction of the dual eligible population that could receive State
                   Supplementary Payments. To conduct a multi-State evaluation identifying
                   the extent to which States are shifting the Part B premium costs for these
                   beneficiaries to the Federal government would require detailed
                   information on every dual eligible indicating why the State’s payments of
                   Part B premiums were eligible for FFP.




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)   9
                   CONCLUSION AND RECOMMENDATIONS
                   The $1 State Supplementary Payments that Iowa made allowed the State
                   to claim $39 million in FFP in FY 2011 that it would not otherwise have
                   received. In essence, Iowa found a way to legally shift costs from the
                   State to the Federal Government without a significant State contribution.
                   Other States may be making similarly small State Supplementary
                   Payments to accomplish similar cost-shifting. However, it is not possible
                   to systematically evaluate the extent to which such cost-shifting occurs, as
                   the necessary data are not available on a national basis.
                   We recommend that CMS:
                   Seek legislative change to prevent States from using State
                   Supplementary Payments to shift Medicare Part B premium
                   costs for FBDEs to the Federal Government
                   A legislative change could prohibit State Supplementary Payments for the
                   sole purpose of creating eligibility for FFP, thereby preventing States from
                   shifting costs for Medicare Part B premiums to the Federal Government
                   without a significant financial contribution from the State for the purpose
                   of supplementing beneficiaries’ incomes.
                   Require States to submit more detailed eligibility information
                   CMS should require States to submit more detailed eligibility information
                   through the data exchange that implements a buy-in agreement. This may
                   include requiring those States without federally administered State
                   Supplementary Payments to submit a code indicating which group of dual
                   eligibles receives State Supplementary Payments.




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)   10
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments, CMS suggested that since the basis for FFP for Part B
                   premiums is SSA’s criteria for State Supplementary Payments, this report
                   and its recommendations should be directed to SSA. CMS also suggested
                   that SSA should—as an alternative to a legislative change—revise its
                   regulatory criteria defining State Supplementary Payments to make them
                   consistent with 42 CFR 435.232(b), which mandates guidelines for
                   optional State Supplementary Payment programs for States that extend
                   Medicaid eligibility to program recipients. For the full text of CMS’s
                   comments, please see Appendix B.
                   OIG has no authority to make recommendations to SSA, which is not part
                   of the Department of Health and Human Services. Furthermore, our
                   finding about Iowa’s payment of a $1 State Supplementary Payment for
                   the sole purpose of receiving FFP involves provisions of Title 19 of the
                   Act, for which CMS has responsibility. Specifically, section 1905(a) of
                   the Act allows States to receive FFP for the payment of Part B premiums
                   on behalf of FBDEs who receive only State Supplementary Payments, and
                   section 1905(j) of the Act defines State Supplementary Payments for this
                   purpose. We reiterate our recommendation for CMS to seek a legislative
                   change. CMS could accomplish this by proposing an amendment to
                   sections 1905(a) and/or 1905(j) that would require States to satisfy certain
                   additional criteria to receive FFP for payment of Part B premiums on
                   behalf of FBDEs who receive only State Supplementary Payments.




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)   11
                           APPENDIX A
                           State Medicaid Programs Cost-Sharing by Type of Dual
                           Eligible
                                                                                        Medicare
                                                                                       Deductibles               Part A       Part B
                       Category of Beneficiary
                                                                                           and                 Premiums     Premiums
                                                                                       Coinsurance
                       Entitled to Medicare Part A and/or Part B;
                       eligible for full Medicaid benefits; recipient
                       (actual or deemed) of money assistance,
                                                                                       Conditional*
                        including Social Security Income (SSI),
Full-Benefit                                                                             Federal
                          State Supplementary Payments, and                                                                 Optional
    Dual                                                                                Financial                   Not
                       Temporary Assistance to Needy Families                                                                 FFP
 Eligibles                                                                             Participation             allowed
                            (TANF); not a Qualified Medicare                                                                available
   (FBDE)                                                                                 (FFP)
                       Beneficiary (QMB), Specified Low-Income
 (there are                                                                             available
                        Medicare Beneficiary (SLMB), Qualified
     two
                       Disabled and Working Individual (QDWI),
categories)
                               or Qualifying Individual (QI).
                                                                                                                            Optional
                           All other FBDEs (i.e., not actual or                        Conditional*                 Not
                                                                                                                            FFP not
                         deemed recipient of money assistance)                         FFP available             allowed
                                                                                                                            available
                           Entitled to Medicare Part A; income
                         ≤ 100 percent of Federal Poverty Level                                                 Required    Required
                                                                                        Required**
 QMB Only                   (FPL); resources ≤ 3x limit for SSI                                                   FFP         FFP
                                                                                       FFP available
                           eligibility; not otherwise eligible for                                              available   available
                                          Medicaid
                                                                                                                Required    Required
                         QMBs who are eligible for coverage of                          Required**
  QMB Plus                                                                                                        FFP         FFP
                                Medicaid services                                      FFP available
                                                                                                                available   available
                         Entitled to Medicare Part A; income
                                                                                                                            Required
                      > 100 percent of FPL, but < 120 percent of                                                    Not
 SLMB Only                                                                              Not allowed                           FFP
                      FPL; resources ≤ 3x limit for SSI eligibility;                                             allowed
                                                                                                                            available
                          not otherwise eligible for Medicaid
                                                                                                         *                  Required
                         SLMBs who are eligible for coverage of                        Conditional                  Not
 SLMB Plus                                                                                                                    FFP
                                 Medicaid services                                     FFP available             allowed
                                                                                                                            available
                    Lost Medicare Part A benefits due to
                     return to work; eligible to purchase                       Required
                                                                                                Not
    QDWI         Medicare Part A; income ≤ 200 percent of       Not allowed        FFP
                                                                                             allowed
                 FPL; resources ≤ 2x limit for SSI eligibility;                 available
                     not otherwise eligible for Medicaid
                    Entitled to Medicare Part A; income
                                                                                            Required
                 ≥ 120 percent of FPL, but < 135 percent of                         Not
      QI                                                        Not allowed                    FFP
                 FPL; resources ≤ 3x limit for SSI eligibility;                  allowed              †
                                                                                            available
                     not otherwise eligible for Medicaid
* Medicaid pays Medicare deductibles and coinsurance insofar as it pays for Medicaid services to the
extent that the Medicaid rate exceeds the Medicare rate.
** A State may elect in its Plan not to pay Medicare deductibles and coinsurance when the Medicaid
rate does not exceed the Medicare rate.
†Federal Medicaid Assistance Percentage equals 100 percent.
Source: Social Security Act, §§ 1902(a)(10)(E), 1903(a)(1), 1905(a), 1905(p)(1) and (3), 1905(s); 42 CFR § 431.625(d).




    Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)                        12
                   APPENDIX 8
                   Agency Comments




             DEPARTMF\.'T OF HEALTH & I JLMA~ SERVICFS

                                                                                            Administrator
                                                                                            WIISilir><;JIO", 0C 20201




            l>ATE:             MAR 11       201~

            TO:             Daniel R. Lcvin,<m
                            ln:<p<'Cl<'f   Gen<:ral
                                                      /S/
            fROM:           Maril):J1 ·! M   ~·t£nn
                            ,.\Jminiqrnfilr

            S{ lllJECr:     Ollie.: of lnspn·tor t il'nvml tOI(i 1 Drali R~.:port Iowa Has Shifted !vk'tlic.arc
                            ( \1st·Sharing t(>r Ilual l :1 igibks to the Feder ;tl (jovcmment (0EI·07-l3-0CI480)


            The Centers for '-1edicarc & Mcdtcaid "crv!C<"> 1C'.ISJ ha' ren·ived and revic\\~d the drati report
            rc!ercnced abo\ c. We thank OJ< i l<•r 'baring this dtali rqxll1 wah u..<;.

            "!he rep<.m dir<·cts it~ recommcm!ati.>tb at CMS and n:comtnemls n statutO!)' change. However. as
            the report notes. the Social St~unt) Admini>tration i SSAJ mnfim1ed in 2003 that the $1
            supplement 'atbtll-clthc rclc\'ant SS,.\ criteria l()r st.!lc supplements, and as it is SSA criteria on
            "hich CMS bases its Federal Hn.ttr<.tall'articipatiorHi>r-l'art-B-premiums authority under 42 CFR
            4} 1.625<d), '"' bclic'c that th~ n:port 'hmdd be dm:ning its recommendations at SSA and the
            statute undcrl!llll: SSXs detcrnmut;on

            A separate McJ1caid rt·gulator: P''"""'n. .;2 CFR ·115.~ ;~~lh). mandates guidelines tlxopti{)nal
            >l:ltc supplementary pa:mmt pm~::r:um i<lf state' that t•:..tc-nd ..-~11.:-gorical Medicaid eligibility to
            program rec ipicms. 1 his prmisiPil pn>\ rd.:s a dirtl:r,·nt and mnre exacting definition of a state
            supplcmcnl!lry payment (e.g .. pa;. m~.·nt must be in an arnutlltll'qual to the ditlcrencc between the
            income standard for the supplement a11d :m indivtdual's wutH;tblc income, which contrn~ts with
            lo\va· s standard less S I payment prof~falll) It may be possihk' that harmoni:~.ation ofSSA
            regulator) criteria with 42 C.F.R ·lJ' 2.1.2tl:1). irbtcaJ of a 't.J!Uhll) amendment. may offer a
            solution to addrcs~ this situatlon.

            As always. C \IS appr<·ciatc> the ''PP<">rtllllll> to corHm<.'nt ''" thc>e reports. and v.c lo()k forward to
            v.orking with (JJ(i <ln this and ••th~• ''~uc' "'the lutc:n.:




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)                      13
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City
                   regional office.
                   Michala Walker served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Teresa Dailey and Rae Hutchison. Central
                   office staff who provided support include Heather Barton,
                   Michael I. Joseph, and Christine Moritz.




Iowa Has Shifted Medicare Cost-Sharing for Dual Eligibles to the Federal Government (OEI-07-13-00480)   14
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
